<html>
<title> - OVERSIGHT OF FEDERAL VEHICLES</title>
<body><pre>[House Hearing, 114 Congress]
[From the U.S. Government Publishing Office]


                     OVERSIGHT OF FEDERAL VEHICLES

=======================================================================

                                HEARING

                               BEFORE THE

                            SUBCOMMITTEE ON
                    TRANSPORTATION AND PUBLIC ASSETS

                                 OF THE

                         COMMITTEE ON OVERSIGHT
                         AND GOVERNMENT REFORM
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED FOURTEENTH CONGRESS

                             SECOND SESSION

                               __________

                           FEBRUARY 26, 2016

                               __________

                           Serial No. 114-106

                               __________

Printed for the use of the Committee on Oversight and Government Reform


[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]


         Available via the World Wide Web: http://www.fdsys.gov
                      http://www.house.gov/reform
                      
                      
                               ____________
                               
                               
                        U.S. GOVERNMENT PUBLISHING OFFICE
23-405 PDF                     WASHINGTON : 2017                            
             
_________________________________________________________________________________________  
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center,
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free).
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="99fee9f6d9faeceaedf1fcf5e9b7faf6f4b7">[email&#160;protected]</a>  
            
              
              
              COMMITTEE ON OVERSIGHT AND GOVERNMENT REFORM

                     JASON CHAFFETZ, Utah, Chairman
JOHN L. MICA, Florida                ELIJAH E. CUMMINGS, Maryland, 
MICHAEL R. TURNER, Ohio                  Ranking Minority Member
JOHN J. DUNCAN, JR., Tennessee       CAROLYN B. MALONEY, New York
JIM JORDAN, Ohio                     ELEANOR HOLMES NORTON, District of 
TIM WALBERG, Michigan                    Columbia
JUSTIN AMASH, Michigan               WM. LACY CLAY, Missouri
PAUL A. GOSAR, Arizona               STEPHEN F. LYNCH, Massachusetts
SCOTT DesJARLAIS, Tennessee          JIM COOPER, Tennessee
TREY GOWDY, South Carolina           GERALD E. CONNOLLY, Virginia
BLAKE FARENTHOLD, Texas              MATT CARTWRIGHT, Pennsylvania
CYNTHIA M. LUMMIS, Wyoming           TAMMY DUCKWORTH, Illinois
THOMAS MASSIE, Kentucky              ROBIN L. KELLY, Illinois
MARK MEADOWS, North Carolina         BRENDA L. LAWRENCE, Michigan
RON DeSANTIS, Florida                TED LIEU, California
MICK, MULVANEY, South Carolina       BONNIE WATSON COLEMAN, New Jersey
KEN BUCK, Colorado                   STACEY E. PLASKETT, Virgin Islands
MARK WALKER, North Carolina          MARK DeSAULNIER, California
ROD BLUM, Massachusetts              BRENDAN F. BOYLE, Pennsylvania
JODY B. HICE, Georgia                PETER WELCH, Vermont
STEVE RUSSELL, Oklahoma              MICHELLE LUJAN GRISHAM, New Mexico
EARL L. ``BUDDY'' CARTER, Georgia
GLENN GROTHMAN, Wisconsin
WILL HURD, Texas
GARY J. PALMER, Alabama

                   Jennifer Hemingway, Staff Director
                 David Rapallo, Minority Staff Director
 Michael Kiko, Subcommittee on Transportation and Public Assets Staff 
                                Director
                      Betty Ward Zukerman, Counsel
                           Willie Marx, Clerk

                                 ------                                

            Subcommittee on Transportation and Public Assets

                     JOHN L. MICA Florida, Chairman
MICHAEL R. TURNER, Ohio              TAMMY DUCKWORTH, Illinois, Ranking 
JOHN J. DUNCAN, JR. Tennessee            Member
JUSTIN AMASH, Michigan               BONNIE WATSON COLEMAN, New Jersey
THOMAS MASSIE, Kentucky              MARK DESAULNIER, California
GLENN GROTHMAN, Wisconsin, Vice      BRENDAN F. BOYLE, Pennsylvania
    Chair
                            
                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on February 26, 2016................................     1

                               WITNESSES

Ms. Lori Rectanus, Director, Physical Infrastructure Issues, 
  Government Accountability Office
    Oral Statement...............................................     6
    Written Statement............................................     9
Mr. Bill Toth, Director, Office of Fleet Management, General 
  Services Administration
    Oral Statement...............................................    19
    Written Statement............................................    21
Mr. Tom Howard, Inspector General, Amtrak
    Oral Statement...............................................    25
    Written Statement............................................    27
Mr. Joseph H. Boardman, President and Chief Executive Officer, 
  Amtrak
    Oral Statement...............................................    39
    Written Statement............................................    41

                                APPENDIX

Amtrak's Answers to the Committee's Questions for the Record, 
  Entered by Chairman Mica.......................................    62
General Services Administration's Answers to the Committee's 
  Questions for the Record.......................................    67

 
                     OVERSIGHT OF FEDERAL VEHICLES

                              ----------                              


                       Friday, February 26, 2016

                  House of Representatives,
  Subcommittee on Transportation and Public Assets,
              Committee on Oversight and Government Reform,
                                                   Washington, D.C.
    The subcommittee met, pursuant to call, at 9:07 a.m., in 
Room 2154, Rayburn House Office Building, Hon. John L. Mica 
[chairman of the subcommittee] presiding.
    Present: Representatives Mica, Duncan, Amash, Massie, 
Grothman, Duckworth, DeSaulnier, and Cummings.
    Mr. Mica. Good morning. I'd like to welcome everyone to the 
Committee on Oversight and Government Reform and our 
Subcommittee on Transportation and Public Assets hearing this 
morning.
    First, let me say that we will have our ranking member join 
us in just a few minutes here. This is a get-away day, and 
everybody is consumed on the floor or in a series of hearings 
this morning. But we do have a member to proceed, and Ms. 
Duckworth will be joining us shortly.
    The topic of today's oversight hearing deals with oversight 
of our Federal vehicles, of our own fleet and also leased 
fleet.
    And the order of business is going to be as follows: I'll 
start with my opening it statement. I'll yield to others 
members for opening statements. Then we'll turn to our 
witnesses. We have four witnesses this morning, and we'll 
introduce them, get them sworn in and proceed, and then we'll 
go to questions. So that will be our order of business.
    And, with that being said, without objection, the chair is 
authorized to declare a recess at any time. And I'll start with 
my opening statement this morning.
    One of the great things about our committee is that we look 
at waste, fraud, and abuse in the Federal Government, and we 
have an opportunity to save the taxpayer money to make programs 
more efficient, to look at where we can do a better job with 
public assets, and we focus on a whole host of areas. And just 
a few of those areas that we've looked at in the past: public 
assets, such as vacant or empty buildings. We are on the verge 
of saving hundreds of millions, billions of dollars. 
Conferences that were abusively expensive, spending funds that 
were unnecessary, I know we've saved over $1 billion just in 
that area. Our committee has looked at duplications in IT 
equipment, data, et cetera, consolidation. We spend 50, 60 
billion dollars there and found half of that money wasted.
    So, today, we're focusing on another area, these are some, 
you might term them, meat-and-potato hearings, but I think it's 
one of the most important responsibilities at Congress: look at 
what we're doing and how we can save money or do it better for 
the taxpayers.
    Kind of interesting getting into Federal vehicle fleet and 
how it's managed and operated. It sounds look a small 
operation, but, in fact, the Federal Government's spent over 
$4.4 billion a year, and that is probably the biggest vehicle 
fleet in the world of 650,000 vehicles. Some of those are our 
own; some of those are leased. The Federal Government's fleet 
mileage exceeds 5 billion miles per year, and we consume and 
spend $400 million just on fuel in that fleet. So it's a pretty 
sizable operation, and almost every agency has either owned by 
the government or leased their vehicles. Roughly a third of the 
Federal fleet is leased, while the remainder is owned.
    You've seen some reports that indicate that between 2010 
and 2014, more than 2.5 million, 2.4 to 2.5 million, in fraud 
recoveries occurred from Federal credit, fuel credit card 
abuse. I have a picture of this Federal fuel credit card. I 
think that's being changed out as we meet today, but we issue 
those cards, and in that short period of time, we've detected 
about $2.5 million in fraud and recovered some of that.
    Fuel card waste and vehicle underutilization are part of 
the problem we've seen with the fleet, and we've got to pay 
attention to, again, all losses that the Federal Government 
occurs with this fleet.
    GAO recently found that two-thirds of the agency's leased 
vehicles did not meet annual mileage criteria. That means they 
weren't traveling or being used to a satisfactory level that is 
established by the government and under Federal property 
regulations that we set for like the minimum utilization that 
would justify leasing. In fact, we found--and we didn't conduct 
all the reports, but we have two reports we'll focus on today. 
First, we've got a GAO report, which is issued in January of 
this year, federally leased vehicles, agencies should 
strengthen assessment processes to reduce underutilized 
vehicles. So this is some of the investigation that was done by 
GAO. And then we have a document prepared by the inspector 
general of Amtrak, and this is titled ``Asset Management and 
Its Observations on Vehicle Fleet Management.'' And I'll quote 
from both of those. This is, again, their findings and part of 
what we're going to look at in this hearing.
    The GAO found that half the Federal vehicles that they 
examined in May of 2015 travelled less than 600 miles that 
month. While the management of Federal vehicles is highly 
decentralized across the individual agency, the fleets that GAO 
looked at and several inspector generals have identified, they 
all found problems with agency's performance of the management 
responsibility for these fleets.
    Agencies that GAO most recently reviewed have not--and 
we've looked at those--those agencies have not consistently 
followed best practices such as one of the most important 
things is conducting a cost-benefit analysis for the basis of 
determining whether to buy or whether to lease. I think we have 
a slide showing leased vehicles.
    In a sampling of just a handful of these agencies--again, I 
refer to the report; they looked at four agencies--GAO found 
that one in 10, or 1,500, of the leased vehicles really weren't 
justified in having any inventory, but the agency paid $5 
million for these vehicles in a single year.
    Now, this is just a sampling of four agencies, and you see 
them up there: National Park Service, Veterans Health, Air 
Force, Bureau of Indian Affairs.
    Now, in the sampling they took, if you apply that to the 
entire number of federally leased vehicles across the 
government, we have wasted in the neighborhood of $80 million 
annually through bad leased fleet management. So we've leased 
vehicles that we don't need. When we lease them, we don't drive 
them or utilize them to their maximum. So there's a lot of 
money being wasted, and GAO found that in their report.
    The owned fleet is another story, and the Government 
Accountability Office is currently conducting an audit for the 
committee on this topic. I'm sure we'll be following up on that 
with another hearing or at least an inquiry.
    Today, I'm pleased to announce that GSA will have a new 
management agreement with Amtrak to save taxpayer dollars on 
many of Amtrak's leased vehicles. This is significant news, 
because, unfortunately--and, again, this is not just something 
I'm saying, but if you look at the report that we have from 
Amtrak conducted by their inspector general, and we'll have him 
here to talk about it--but this report details some troubling 
history of Amtrak's management in leasing and operations of its 
fleet. In some instances, Amtrak was spending nearly $4,500 
more than what it could have been paying through GSA when they 
leased vehicles. We found, again, that Amtrak's--well, not we, 
but the inspector general found that Amtrak's fleet is also 
subject to severe underutilization and weak fuel card 
oversight. We have some pictures--also some slides that we can 
show. Many vehicles just sat idle not only for months but 
sometimes not driven for a year. In May of last year, there 
were 153 Amtrak vehicles that consumed less than 15 gallons of 
fuel for the month that was examined, 26 of which were Amtrak 
police vehicles; two were SWAT vans. I think one of the SWAT 
vans--if you look at it up there--it doesn't appear moved or 
was driven for a year. We know some of these assets are 
infrequently needed to deploy, but, again, we have a 
significant fleet. We have significant expenditures and losses.
    It appears that Amtrak has also--and this is from the 
automotive fleet report, from their engineering department, 
February 2, 2016, in that month, it showed vehicles showing no 
fuel purchase for the month, 138 vehicles. There's no fuel at 
all purchased for them, which means a lot of those vehicles 
were underutilized.
    It remains clear that proper fleet management practices at 
all agencies, big and small, can save significant amounts of 
money.
    Today, we'll hear both from GAO, and we'll also hear from 
the inspector and from Amtrak representatives and others on how 
improvements in Federal management of vehicles can move 
forward. Amtrak has taken some steps to correct some of their 
deficits that have been uncovered, and we'll hear about that 
too.
    We'll also hear how GSA and Amtrak have executed their 
management responsibilities and what they have done or will do 
to address some of the problems that have been uncovered by 
both GAO and the inspector general.
    I look forward to hearing the testimony from all of our 
witnesses.
    I'm pleased to now yield to the ranking member, Ms. 
Duckworth. Welcome.
    Ms. Duckworth. Thank you, Mr. Chairman.
    And thank you, ladies and gentlemen, for being here.
    Mr. Chairman, I must apologize for my late arrival. I have 
simultaneous hearings this morning. The other one is on the 
Army's 2017 budget proposal. So, having just concluded that, 
I'm glad I made it here in time for the start of this and to 
hear the chairman's excellent opening remarks.
    Today's hearing is a chance to continue our subcommittee's 
oversight of Federal fleet management to ensure that taxpayer 
dollars are being used properly and efficiently. This is 
significant--in fiscal year 2014, the Federal fleet totaled 
just over 633,000 vehicles, nearly one-third of which were used 
by the United States Postal Service. Agencies spent more than 
$4 billion to buy and operate these vehicles, including more 
than $1 billion used to lease more than 186,000 vehicles from 
the GSA. This is a significant expenditure that is vulnerable 
to waste, fraud, and abuse. While the vast majority of civil 
servants serve our country honorably and are always mindful of 
the need to use taxpayer dollars responsibly, the unfortunate 
reality is that with more than half a million vehicles being 
used across the Federal Government, it is almost certain that 
bad apples would seek to take advantage of the system. The size 
of the Federal fleet has declined in recent years, and the 
administration has taken important steps to improve fleet 
management.
    In 2015, the President issued an executive order that set 
aggressive goals for reducing the Federal fleet emissions over 
the next decade and required each agency with more than 20 
vehicles to focus on eliminating unnecessary or nonessential 
vehicles from the agency's fleet inventory. However, much work 
remains to be done according to the GAO. Current fleet 
management policies may fragment responsibility and, in the 
process, weaken accountability and oversight.
    For example, although GSAsupplies agencies with a vast 
majority of leased vehicles and maintains the database that 
houses leased fleet information, GSA is not responsible for 
monitoring agencies' vehicle-use policies. GSA has developed 
and issued standards for optimizing fleet utilization, but 
agencies do not have to follow these recommendations or comply 
with their own internal guidelines. As GAO noted in its most 
recent review of five large agency fleets when justifying 
adding a vehicle to the agency's fleet, agencies appeared to be 
either disregarding GSA's recommended standards or not 
following their own. Specifically, GAO found four of the five 
agencies in our review could not readily provide justifications 
for vehicles that had not met utilization criteria defined in 
agency policy. This finding appears to be at odds with the 
administration's efforts to get agencies to regularly review 
the sizes of their fleets and eliminate any vehicle that is not 
meeting an essential agency need.
    I look forward to examining today what specific steps we 
can take to enhance the President's efforts to ensure the 
Federal fleet is as cost-effective and fuel-efficient as 
possible. In particular, since GSA has gone to the trouble of 
developing best practices standards for assessing fleet-use 
needs, one wonders whether Congress should mandate the adoption 
of a single, uniform standard at least as a default option.
    Before closing, I also want to note that today's hearing is 
an excellent opportunity to address fleet management problems 
within Amtrak highlighted by Amtrak's IG. According to the IG, 
deficiencies in cost-control systems and ineffective oversight 
has allowed waste, fraud, and abuse to infect Amtrak's fleet 
program. One of the most alarming incidents of fuel card fraud 
identified by the IG was when an individual, who was not an 
employee of Amtrak, obtained an Amtrak fuel card and proceeded 
to spend more than $57,000 on it. Every dollar Amtrak wastes 
through poor management of its vehicle fleet is a dollar that 
cannot go to meet urgent maintenance needs of the system or to 
support long overdue infrastructure improvements.
    Moving forward, I am pleased that Amtrak has announced an 
aggressive effort to review its vehicle management practices 
and the size and composition of its fleet. I urge Amtrak to 
complete these reviews quickly and, more importantly, take 
decisive steps to ensure that employees understand fraud will 
not be tolerated.
    I thank the chairman, and I yield back.
    Mr. Mica. I thank the gentlelady.
    Other members?
    Mr. Duncan.
    Mr. Duncan. Well, just very briefly.
    And, Mr. Chairman, I want to thank you for calling this 
hearing, the abuse of these vehicles and these fuel cards, this 
is something that could be very easily abused, and I think we 
would see much more abuse if it were not for you calling a 
hearing such as this. And it has been something that I'm 
interested in, because I remember, several years ago, I had a 
constituent in Tennessee who complained to me because the 
Forest Service was being very excessive in the number of 
vehicles that they had, and then this constituent told me that 
they were selling off these vehicles when they weren't very old 
at all and didn't have many miles on them at all.
    I can tell you, I generally have two cars. One of my cars 
right now has 149,000 miles on it; it is still doing just 
great. And I had two other vehicles before I bought a used car 
last year: one that had 194,000 miles on it and another one 
that had about 200,000 miles. So we can get much more use out 
of these vehicles, and I think that we need to ask how many 
miles these cars are being used or driven before they are sold 
off.
    And, also, I've heard that they have been selling to people 
who are connected to Federal employees, and they learn about 
these auctions when nobody else does. And so I think it would 
be interesting to see, what is the average number of miles 
driven before these cars are sold, and what steps are being 
taken, if any, to prevent these cars from just going to 
insiders, so to speak?
    So thank you very much for calling this hearing.
    Mr. Mica. Thank you, Mr. Duncan.
    Any other members?
    If not, we will leave the record open, with agreement from 
the ranking member, for a period of 10 days. Without objection, 
so ordered.
    We'll now turn to our witnesses and welcome them this 
morning. We have four witnesses, and let me introduce them.
    And what we'll do is we'll introduce you. We'll have you 
sworn in. We swear in all of our witnesses, because we're an 
investigative and oversight committee, and let you go through 
your statements.
    Several of you have been here before. We try to have you 
limit your statements to 5 minutes, summarize, and then you can 
ask through the chair or a member to include additional 
material with your testimony or for the record.
    So we'll go through all of the witness testimony, and then 
we'll go through questions. So that's going to be the order.
    So we have with us today: Ms. Lori Rectanus, and she is the 
director of physical infrastructure issues with GAO, Government 
Accountability Office, and I referred to their report. Mr. Bill 
Toth, he is the director of Fleet Management with the General 
Services Administration. Welcome. We have Mr. Tom Howard, 
inspector general--I referred to his report--of Amtrak. And 
then we have the chief executive officer and president, Joe 
Boardman, from Amtrak back with us.
    So welcome to all of you. If you will stand, please, and 
we'll swear you in.
    Raise your right hand.
    Do you solemnly swear or affirm that the testimony you are 
about to give before this subcommittee of Congress is the whole 
truth and nothing but the truth?
    Let the record reflect that all of the witnesses answered 
in the affirmative, and we'll start right out.
    Welcome, again, the director of physical infrastructure 
issues at GAO, Ms. Lori Rectanus.
    Welcome, and you are recognized.

                       WITNESS STATEMENTS

                   STATEMENT OF LORI RECTANUS

    Ms. Rectanus. Thank you, Mr. Chair.
    Good morning. Chairman Mica, Ranking Member Duckworth, and 
members of the subcommittee, I'm pleased to be here today to 
discuss the Federal fleet, a $4.4 billion activity that covers 
over 630,000 nontactical vehicles. My statement today 
highlights key fleet characteristics and provides information 
on how selected agencies are carrying out their fleet 
responsibilities.
    As a bit of context, the idea that there's a single Federal 
fleet is misleading. In reality, there are dozens, if not 
hundreds, of fleets that range in size from just a few vehicles 
to more than 200,000. Almost 80 percent of those vehicles are 
managed by seven agencies, but just about every agency has some 
vehicle, and about 70 percent of all Federal vehicles are 
owned, while about 30 percent are leased.
    Agencies have sole responsibility for managing their 
fleets. This means that they determine the number and types of 
vehicles they need, whether they want to lease or purchase 
those vehicles, whether a vehicle is sufficiently utilized, and 
whether a vehicle should be removed from the fleet. This 
decentralized approach gives agencies the flexibility to 
structure their fleets to reflect their diverse missions. 
However, the financial well-being of this approach depends on 
agencies managing their fleets in the most cost-effective 
manner possible.
    While GSA provides advice and guidance to agencies, it does 
not have formal oversight responsibility over agency actions. 
Each agency is responsible for collecting and reporting data on 
its vehicle fleet. Those agencies that lease vehicles from GSA 
can utilize the services provided by GSA for this, and we 
recently found those data were generally reliable. However, 
information on owned vehicles is less available, and its 
reliability is less clear. This is because each agency collects 
and maintains its own data and reports limited information. We 
have also found that agencies' fleet management information 
systems did not always have the elements recommended by GSA. 
Most often missing were direct and indirect costs, which are 
essential for conducting life-cycle analysis, which is needed 
to determine true vehicle costs and whether to buy, lease, or 
eliminate vehicles.
    Agencies should also identify their optimal fleet size and 
ensure that vehicles are fully utilized. In the past, we found 
selected agencies often lacked supporting documentation to 
explain how they identify their optimal sized targets, or they 
did not follow GSA's guidance on conducting this analysis. 
Regarding utilization, agencies are allowed to define their own 
utilization criteria so they may adopt the GSA suggested 
mileage criteria, or they may use other criteria, such as the 
number of vehicle trips per month. We recently found that 66 
percent of the selected leased vehicles from five agencies we 
reviewed did not travel the number of miles recommended by GSA, 
and 29 percent did not even meet the agencies' own utilization 
criteria.
    When vehicles do not meet the identified utilization 
criteria, agencies can subsequently justify vehicles using any 
additional criteria. We found that four of the five selected 
agencies could not readily provide the justifications for about 
1,500 leased vehicles that did not meet the original criteria.
    Finally, agencies should also eliminate unnecessary 
vehicles. In our recent review, we found that three of the five 
agencies studied retained 500 leased vehicles that did not meet 
the agencies' own utilization criteria and had no other 
justification. Altogether, we identified almost 2,500 vehicles 
from our sample of about 16,000 that either did not meet 
utilization criteria, did not have documentation, or were 
retained even when agencies determined that they were not 
justified. These vehicles cost the agencies about $9 million in 
fiscal year 2014. It would be an interesting exercise to see 
what this number might be for the 600,000 vehicles currently in 
use.
    In conclusion, while agencies need the appropriate number 
and type of vehicles to meet their missions, they also need to 
be good stewards of Federal resources. Agencies must have 
adequate data and appropriate procedures that provide assurance 
that they are using the provided flexibility to meet their 
missions in the most cost-effective way possible.
    Chairman Mica, Ranking Member Duckworth, and members of the 
subcommittee, this concludes my prepared statement. I would be 
pleased to respond to any questions.
    [Prepared statement of Ms. Rectanus follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

    
    Mr. Mica. Thank you.
    And we'll hear now from Bill Toth, and he's the director of 
the Office of Fleet Management of GSA.
    Welcome, and you're recognized, sir.

                     STATEMENT OF BILL TOTH

    Mr. Toth. Thank you. Good morning, Chairman Mica, Ranking 
Member Duckworth, and members of the subcommittee. I appreciate 
the opportunity to speak with you today regarding General 
Services Administration's role in the Federal fleet. My name is 
Bill Toth, and I'm the director of GSA's Office of Fleet 
Management. I've been the director for over 8 years and with 
GSA for over 25 years.
    The mission of GSA's Office of Fleet Management is to 
deliver safe, reliable, and low-cost vehicle solutions that 
allow Federal agencies to effectively and efficiently meet 
their missions. The Federal fleet can be broken down into three 
categories of roughly equal size. One-third is owned by GSA, 
and it's leased to eligible entities. A second third is owned 
and maintained by the U.S. Postal Service. And the final third 
is owned and maintained by non-Postal Service Federal agencies.
    GSA's status as a mandatory source of vehicle purchasing 
guarantees that all Federal agencies benefit from the 
government's buying power inherent in having a single, 
strategically sourced point of purchase. In fact, in fiscal 
year 2015, GSA negotiated a discount on light-duty vehicles 
that average 19 percent below dealer invoice. Given GSA's FY 
2015 procurement of 47,409 vehicles, this discount saved the 
American taxpayer an estimated $306 million. As a full service 
leasing option for Federal agencies, GSA drives down costs for 
Federal customers by providing end-to-end fleet management 
services at an all-inclusive rate. The leasing program has 
demonstrated savings year after year by leveraging the 
government's buying power and consolidating redundant fleet 
management functions duplicated in many different agencies. 
GSA's motor vehicle program provides customers with a 
comprehensive fleet solution that includes vehicle acquisition, 
maintenance and accident management of fleet service cars with 
a dedicated waste, fraud, and abuse detection team, and many 
other solutions, as outlined in my written testimony.
    GSA fleet leasing supports over 15,000 unique customers, 
who collectively lease over 205,000 vehicles. To demonstrate 
our commitment to providing customers with the best possible 
value, GSA decreased its leasing rates for the past 2 fiscal 
years by 2 and 2.75 percent, respectively. In addition to the 
leveraged buying power and governmentwide administrative cost 
savings inherent in a centralized fleet management program, GSA 
prioritizes helping customers make smart decisions about the 
composition and size of their leased fleet. While GSA is proud 
of the progress it has helped customers make in optimizing 
their fleet size and composition, Federal agencies themselves 
are empowered to analyze their mission needs and, accordingly, 
make the final decision about how many vehicles they need to 
successfully fulfill the mission tasked to them by Congress.
    Ultimately, authority for vehicle purchasing and operating 
decisions remain with each Federal agency. GSA partners with 
its customer agencies to help them stretch limited resources 
and maximize their mission impact. Each year, GSA replaces 
eligible vehicles within its leased fleet with new, safe, fuel-
efficient vehicles. Over the past 6 fiscal years, vehicles 
added to the fleet had an average of 19 percent higher miles 
per gallon rating than the corresponding vehicles they replace. 
In addition, two of GSA's unique solutions available to all 
Federal customers include the Short Term Rental program for 
vehicle and equipment rentals and the Dispatch Reservation 
Module, which is an electronic car-sharing program for 
scheduling vehicles and providing utilization reports.
    As a motor vehicle leasing provider, GSA assumes 
responsibility for providing solutions that save American 
taxpayer money. Our strategy for meeting these goals involve 
maintaining the vehicles in superior condition, thus decreasing 
the need for costly maintenance and repair and vehicle down 
time. GSA replaces vehicles on a schedule designed to maintain 
a safe, modern, dependable, and fuel-efficient fleet while 
taking advantage of manufacturer warranties to minimize 
maintenance costs. Used vehicles are actively remarketed to the 
general public to ensure the highest possible proceeds are 
captured upon the sale of each vehicle.
    Through these and the other solutions outlined in my 
written testimony, GSA is able to reduce the need for 
administrative overhead across the government by centralizing 
operational and administrative fleet support functions. We also 
offer the opportunity to consolidate agency-owned vehicles and 
commercially leased vehicle requirements into the GSA fleet to 
reduce governmentwide cost and redundancies. I appreciate your 
support for GSA's concerted efforts to drive continuous 
improvements in the Federal fleet and your partnership in 
delivering best value to the American taxpayer.
    Thank you for the opportunity to testify today, and I look 
forward to answering your questions.
    [Prepared statement of Mr. Toth follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

    
    Mr. Mica. Thank you, sir.
    And we'll now turn to Tom Howard, who is the inspector 
general of Amtrak.
    Welcome, sir, and you're recognized.

                    STATEMENT OF TOM HOWARD

    Mr. Howard. Good morning, Chairman Mica, Ranking Member 
Duckworth, and members of the subcommittee. Thank you for the 
opportunity to discuss our work on Amtrak's vehicle fleet.
    Within the last year, three of our reports have addressed 
recurring issues with Amtrak's management and oversight of its 
fleet of vehicles. The issues include unexplained growth in the 
size of the fleet, potential underutilization of some vehicles, 
and unnecessarily costly leasing practices. We also found that 
ineffective oversight of fuel card use has led to fraud and 
abuse. The root cause of the specific issues with the fleet are 
weaknesses in Amtrak's management controls, an issue we have 
identified as the cause of operational and programmatic 
problems throughout the company. Amtrak management has been 
responsive to our observations and recommendations and is 
taking or plans corrective action.
    In that regard, we believe that Amtrak has opportunities to 
improve controls and reduce expenses by enhancing the 
management and oversight of the vehicle fleet. I will briefly 
summarize some of our work on the areas where we think there 
are opportunities.
    Since 2008, Amtrak's fleet grew by 28 percent, and it now 
maintains over 2,500 vehicles. While we are aware that Amtrak 
has added some vehicles in support of discretely funded 
projects, it is unclear why the fleet has grown as much as it 
has. In addition, the number of vehicles that employees can 
take home when off duty increased by 20 percent over the last 3 
years. Those vehicles now account for 23 percent of Amtrak's 
fleet. As GAO noted, some Federal agencies have reduced the 
size of their fleets to save money, and we believe that this is 
an opportunity where Amtrak may be able to reduce expenses.
    Even as the fleet is expanding, some vehicles appear to be 
underutilized. As you mentioned, Mr. Chairman, in one month 
last year, the company identified 153 vehicles that used less 
than 15 gallons of fuel, an indicator of potential 
underutilization. Evaluating the cause of the low fuel usage 
and redeploying or disposing of vehicles where possible, could 
reduce the need for additional vehicles and help decrease 
expenses for Amtrak.
    Another opportunity for improvement is reducing Amtrak's 
overall leasing costs by taking better advantage of GSA leases. 
Amtrak currently obtains 73 percent of its vehicles from GSA; 
however, it also has some relatively high-cost commercial 
leased vehicles that may be available from GSA at lower cost. 
For example, on one project, we estimate that Amtrak could have 
saved as much as $212,000 a year by obtaining GSA vehicles 
instead of leasing 26 vehicles from commercial vendors.
    Also, Amtrak doesn't require a lease purchase comparison 
before obtaining additional vehicles. As a result, it has 
entered into commercial leases that have cost more money than 
it would have if they had bought the vehicles outright. For 
example, the company could have saved more than $127,000 by 
purchasing eight utility trucks rather than leasing them from 
commercial vendors.
    The third area for improvement is fuel card oversight. Our 
investigations have identified employees who were making 
fraudulent purchases with Amtrak- and GSA-issued fuel cards. In 
most cases, those employees have been prosecuted and convicted 
of criminal charges. We found that the employees were able to 
use the cards for personal expenses because of systemic 
weaknesses in internal controls. For example, supervisors were 
not tracking who was using the cards. They were not monitoring 
fuel and vehicle usage logs, and they were not retrieving cards 
when employees left the company. Our reports have addressed the 
issues I just summarized, and Amtrak management has included 
corrective actions in its plan for improving the management and 
oversight of the vehicle fleet. We are encouraged by 
management's responsiveness to our observations and 
recommendations as well as the development of its plan. We 
note, however, that Amtrak's work on the plan is in the very 
early stages and that effective implementation will require 
sustained management attention and a long-term commitment to 
changing the status quo.
    This concludes my remarks, and I'm happy to answer any 
questions you might have.
    [Prepared statement of Mr. Howard follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

    
    Mr. Mica. Well, thank you.
    And we'll hear from everyone after we've heard from Mr. 
Boardman.
    Welcome, president, CEO of Amtrak, Mr. Boardman. Thank you.

                STATEMENT OF JOSEPH H. BOARDMAN

    Mr. Boardman. Good morning, Mr. Chairman, and Ranking 
Member, and the rest of the committee. At any given moment, an 
Amtrak train is on the move somewhere in the United States. 
Lots of things can happen, and we maintain a vehicle fleet for 
our transportation organization so that our managers can 
respond quickly to incidents out on the road. We also run a 
police department of more than 400 people with national 
responsibilities, and our engineering department that 
undertakes construction and maintenance work not only on 400 
miles of the Northeast Corridor but on more than 200 miles of 
railroad in Michigan. Our footprint can be quite substantial. 
For example, in northern Florida, we have several station 
facilities and the Auto Train facility in Sanford where we do 
maintenance work on contract for SunRail.
    Amtrak does have 2,568 vehicles: 1,800 of them come from 
GSA; Amtrak owns 531; and we lease commercially 237. GSA is 
always our first choice. The annual cost to operate this fleet 
is roughly $25 million. In the fall of last year, at the 
request of management, me to Tom Howard, OIG reviewed our 
vehicle fleet management program and noted some issues with the 
internal control and monitoring processes for our vehicle 
fleet. These were ultimately memorialized in the IG report 
published in October, which identified a set of weaknesses in 
the way in which our vehicle fleet is managed as well as 
specific control weaknesses and vulnerabilities to fraud, 
waste, and abuse.
    There was some underutilization of portions of the fleet. 
Not all required inspections were being completed, and leasing 
decisions needed improvement. Alternate garaging and fuel 
overfills were also identified as areas of concern.
    I'd like to stress a couple of important points. We have 
worked closely with the IG as they developed their findings, 
and this partnership has helped us to work collaboratively to 
develop the very specific response plan, which has been 
reviewed in detail with your staff and which I will outline for 
the committee.
    In a more global sense, this partnership is a key component 
of a much larger framework of control, audit, and risk-
management functions that we work to implement at Amtrak over 
the past 4 years. This system of enterprise risk management has 
been a particular priority of mine, and it stems, in part, from 
a recommendation of our inspector general that Amtrak should 
have and develop an enterprise risk-management function.
    Our management-control framework provides the company with 
a formal process for ensuring that we identify risks to both 
the business and the enterprise within the context of our 
strategic objectives and our business process objectives. The 
foundation of our framework is a system of risk assessments 
undertaken by the controls organization that we have created to 
implement the management-control framework. The framework 
itself provides a consistent methodology for identifying 
control-improvement opportunities, documenting them, and 
managing the organizational response to ensure that we have a 
consistent and effective response and implementation across the 
organization.
    We've also sought to incorporate external review and audit 
processes into the framework, because I believe they bring a 
different perspective, and this helps us to identify and 
address potential risks.
    The IG report's recommendations are captured and tracked 
through this same process. Our plan to address the management 
challenges with our vehicle fleet should be understood within 
the context of the management-control framework. It's not just 
that we've created a plan to address and identify an issue; 
there is now a mechanism for facilitating plan development, 
monitoring progress, and ensuring that the identified risks are 
addressed and properly carried out.
    We've benchmarked BNSF railroad centralized vehicle fleet 
program and see many opportunities to improve our program. 
We've created an action plan to improve compliance oversight 
for drivers and vehicles, and we're in the process of updating 
our policies and procedures. We've implemented a pilot program, 
which supports our transportation department, and we're now in 
the process of implementing improved management programs for 
our police and engineering departments. We anticipate 
completion of a rollout for all three programs, all 
departments, by June. We're creating a governance council to 
oversee the vehicle management program and determine whether 
Amtrak should ultimately continue to administer the program or 
outsource some or all of the program to a third party through a 
competitive process.
    I think it's important to emphasize that this plan is not 
something that we pursue in isolation. There's a system of 
controls in place and an organization that's empowered to 
monitor and oversee the implementation of new processes. We 
also have a system of independent checks, including external 
audits and our inspector general, to provide effective 
oversight. Creation of a system of this type is, I think, the 
most important single action we could take to address 
weaknesses of the type addressed in the IG report. And I'm 
confident we will be able to use it to ensure that issues are 
properly addressed.
    Thank you very much.
    [Prepared statement of Mr. Boardman follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

    
    Mr. Mica. Thank you, Mr. Boardman.
    And thank all of our witnesses.
    And now we'll turn to some questions.
    First of all, I want to turn to GAO. Ms. Rectanus, your 
little study--you didn't study all of the agencies. As you 
said, we have a very diverse and scattered agency fleet 
operations and management, but you looked at five agencies, was 
it?
    Ms. Rectanus. Yes, sir. We looked--excuse me. We looked at 
four departments, and then, within Interior, we looked at 
National Park Service and----
    Mr. Mica. I said four or five----
    Ms. Rectanus. So five, yes.
    Mr. Mica. Okay. And you found that we could save 
approximately how much to--describe that again?
    Ms. Rectanus. Again, what we found in looking at the 
various steps along the way of what agencies should be doing to 
ensure they fully utilized their vehicles and justify, we found 
almost--about 2,500 vehicles that cost them about $9 million. 
How we calculated that is that's what they paid to GSA in 
fiscal year 2004 to maintain those vehicles.
    Mr. Mica. Didn't the President put out an order some years 
ago saying that all of the agencies had to set forth a plan for 
management of their fleets?
    Ms. Rectanus. There's been a number of those mandates that 
have come out. Yes, in 2011, there was a Presidential memo that 
talked about optimizing the fleets and eliminating unnecessary 
vehicles.
    Mr. Mica. I think the deadline was last year.
    Ms. Rectanus. December 2015, correct.
    Mr. Mica. And I think you're also doing another report for 
us, a review for us?
    Ms. Rectanus. Yes. You have given us a request to look at a 
number of issues with owned vehicles, not just vehicles but 
construction vehicles, aircraft. You're keeping us busy.
    Mr. Mica. Well, we extrapolated some of the savings, and I 
estimate, you know, you just take from your four samplings, 
it's somewhere between 80 and 100 million dollars is lost a 
year. It's fairly significant fleetwide.
    We've got some instances of purchases that got us down. 
We've got about a third of the fleet, I guess, is the post 
office, 600,000 vehicles, whatever we have. And the GAO 
reported the Postal Service had purchased about 43 alternative 
fuel vehicles and indicated the post office might not be able 
to operate vehicles using alternatives as fuel, because the 
fuel, one, wouldn't be available, or it would be more costly. 
That was your finding there?
    Ms. Rectanus. Yes. That work was from several years ago, 
where we looked at some of the challenges the Postal Service 
was having with its outdated fleet. It doesn't have the money 
to replace the fleet, but, yes, we found----
    Mr. Mica. When they bought replacements that had 
alternative fuel, some of the vehicles wouldn't have access to 
the fuel, or they turned out to be a much more costly exercise.
    Ms. Rectanus. Correct. They either had vehicles that were 
not within proximity of fuel availability, or just because they 
didn't want their carriers to have to go way out of the way to 
get alternative fuel in, they sought a waiver from DOE----
    Mr. Mica. The IG of Amtrak produced a very good report. And 
could we put up that chart 6? It shows a comparison of GSA and 
commercial leased costs for common vehicles in Amtrak's fleet, 
and it showed that the type of vehicle, if you look at the red 
there, that's what they paid. So--and GSA cost, they could 
acquire the same type of vehicle, in most instances, for less 
than half and sometimes they paid--Amtrak paid 10 times as 
much. If you look at the fuel and waste truck comparison, the 
dump truck, SUVs, three times as much. Is this what you found, 
Mr. Howard?
    Mr. Howard. Yes, that's correct.
    Mr. Mica. And you said just on one sale, it was like a 
quarter of a million, some $200,000----
    Mr. Howard. --212,000, yes, on commercial leases.
    Mr. Mica. I'm sorry. That was a lease, and then we looked 
at purchase. Where is the chart here on the purchase? Here's 
eight vehicles, just eight vehicles--and this is also yours--
that they purchased. They could have purchased new for 295,000. 
They did a 44-month commercial lease and paid 422,000? Is that 
correct?
    Mr. Howard. That's correct.
    Mr. Mica. So a substantial saving both in leasing at lower 
costs and then lease versus purchase, which brings us back to, 
we haven't had the cost-benefit analysis of looking at whether 
it's better to lease than purchase. That seems to be ignored 
kind of agencywide. You found that at Amtrak, Mr. Howard?
    Mr. Howard. Yes, we did, sir.
    Mr. Mica. And you found that, Ms. Rectanus, governmentwide?
    Ms. Rectanus. We have not actually looked individually by 
vehicle that lease versus purchase.
    Mr. Mica. Well, maybe in your upcoming report we can----
    Ms. Rectanus. Yes, sir.
    Mr. Mica. --we can get more information on that.
    Then we had another issue, it's kind of interesting. I 
worked some on the railroad when I was going to college in the 
summer, and I know sometimes they have to buy more fuel than 
they put in the tank of the vehicle. But there were a number of 
instances, pretty extensive number of instances, in which the 
purchase of fuel exceeded the capacity of the vehicle tank.
    Did you find that, Mr. Howard?
    Mr. Howard. Yes. Yes, sir. We had several investigations of 
those issues. They were referred to our office by GSA's fraud 
unit. They monitor the fuel usage of vehicles on the GSA--that 
are leased with the GSA.
    Mr. Mica. And speaking of fraud, I mentioned the fuel 
credit card, and I just got, a day or two ago, a notice from 
you of a case, one case, I guess this employee was ripping off 
the credit card, and he, I guess, has been fired. But you had 
mentioned that you have gone after these folks. This is just 
one instance in the last 2 days. How many people have we had to 
go after on this, or have we successfully prosecuted?
    Mr. Howard. We have done nine cases that we've completed. 
We will still have a couple of cases that are under 
investigation.
    Mr. Mica. Well, that's a, again, unfortunate but, again, 
something we have to pay attention to.
    I know Amtrak has a lot of issues, and I've worked over the 
years with Mr. Boardman on food service, for one, and we 
reviewed accidents. They have a pretty tough safety record of 
accidents with their trains, but this was quite interesting, 
this operational data. And I believe this is from your report 
too, Mr. Howard. These are accidents with vehicles, and it 
showed accidents percentage of times the government--or a 
government employee was at fault versus the employees in all 
the agencies. And in accidents in which an Amtrak employee was 
involved, they were at fault 97 percent, 96.8 percent, versus, 
in other accidents across the government, 65 percent.
    Is that pretty accurate--is this accurate? This is your 
production, sir?
    Mr. Howard. No, sir, that's not mine. That's the----
    Mr. Mica. I'm sorry, this is the GSA.
    Mr. Howard. Oh.
    Mr. Mica. Mr. GSA, Mr. Toth, this was a document we got 
from you, then?
    Mr. Toth. I don't believe we submitted that document. We do 
provide that information to all of our leasing customers, so 
Amtrak would have that.
    Mr. Mica. But, again, this is information that we have from 
one of the investigative agencies showing, in fact, 97--that's 
Amtrak's leased fleet I'm told. But, again, 97 percent of the 
time, we have an Amtrak employee--sounds like we need to do a 
little bit better job of driver training at Amtrak.
    Just a couple of quick questions for Mr. Boardman, and then 
I'll yield to the ranking member.
    Where are we on the use of charge card for food service 
with Amtrak?
    Mr. Boardman. Charge card for food service?
    Mr. Mica. Yes.
    Mr. Boardman. I'll have to get back to you on that. I do 
not----
    Mr. Mica. Are we at 100 percent?
    Mr. Boardman. I do not know, sir. I will get you----
    Mr. Mica. We are going to leave the record open----
    Mr. Boardman. --a written response to that.
    Mr. Mica. I said even people who do lawn maintenance now, 
you can charge on--and we've not had that on Amtrak either for 
purchase of tickets onboard or for food, and we've lost a 
billion dollars in 12 years in food--Amtrak food service.
    What was Congress' contribution to Amtrak in this current 
fiscal year? I think it's $1.9 billion?
    Mr. Boardman. It has been 1.390 for the last 3 years, sir.
    Mr. Mica. But it's a significant underwriting, and if you 
have 31 million passengers, you divide that, that's a cost of 
about $40 million per ticket we're underwriting, and some of 
those we're not sure on the sale.
    Mr. Boardman. That does include the capital cost, sir.
    Mr. Mica. Yes. But, again, it's a cost that the Federal 
Government is paying. I would love to operate any company and 
have the government subsidize my capital cost.
    You were moving forward on purchasing passenger vehicles, 
and I thought that was in the $2-plus billion range to replace 
Acela, is it?
    Mr. Boardman. Passenger rail vehicle, sir?
    Mr. Mica. Yes.
    Mr. Boardman. Yes.
    Mr. Mica. Is that still underway?
    Mr. Boardman. Yes, sir.
    Mr. Mica. Have you done a cost-benefit analysis to see if 
they can be leased?
    Mr. Boardman. Yes, they are a business plan. I don't think 
we've done a leasing cost, but almost all of our trains wind up 
being leased in the end through a financial institution of some 
sort.
    Mr. Mica. Well, I think it would be interesting to see some 
of what's being considered in that regard. I know across the 
world, in some instances, State supported rail and then private 
rail are leasing their vehicles as opposed to purchasing them, 
and that's pretty significant purchase; $2 plus billion is the 
estimate, I believe.
    Ms. Boardman. You're talking, sir, excuse me, just about 
the high-speed rail trains?
    Mr. Mica. Yes. Well, Acela trains.
    Mr. Boardman. Yes, sir.
    Mr. Mica. Okay. Maybe you can get back to us on the record 
with that. So, with that--and I'll have additional questions 
we'll either ask or submit--I'd like to yield to our ranking 
member.
    I see, also, we have the member--the ranking member of the 
full committee has joined us. But we will take go to Ms. 
Duckworth first.
    Ms. Duckworth. Thank you, Mr. Chairman.
    I am of the opinion that Amtrak is a public good, and it's 
worth the investment from the government. And, with that said, 
I understand that Amtrak has initiated a significant 
restructuring of its fleet management program focused on 
centralizing the decisionmaking and oversight process.
    Mr. Boardman, can you describe the specific steps your 
company is taking to improve the management of its fleet, and 
what's your timeline for full implementation of the planned 
changes?
    Mr. Boardman. Our planned changes for the three areas that 
we're concentrating on right now would be June of this year, 
which is the operations, the engineering, and the police 
department, where we saw the need most at first.
    We have worked hand in hand--maybe the initial kinds of 
issues that were really raised by the Office of the Inspector 
General really defined for me the need to get in a much deeper 
view of what was happening with our vehicle fleet. So one of 
the early things that we did was we went out and benchmarked 
against what we considered a well-managed vehicle fleet on a 
railroad, being Burlington Northern Santa Fe. And at the same 
time, we began to look at what the real problems were, and it 
was something that Amtrak suffers with, and the chairman has 
pointed this out as well as the IG for a while now, and that is 
internal controls.
    And, in 2012, the IG provided for us an evaluation of our 
risk and risk management, enterprise risk management. And when 
they did that, we created a management-control framework. And 
that management-control framework included looking at business 
risks and also the objectives that we were trying to get done 
with projects.
    And so coming together from all of that, one of the things 
that was important in looking at vehicle fleet management was 
having consistent regulations, consistent controls that would 
maintain. Amtrak existed, really, with all these independent 
sort of organizations, and they set their own criteria for what 
they were going to provide vehicles for. So what we're pulling 
together is a centralized look at how we do that with a 
governance program that identifies and evaluates what needs to 
be done for the future and that those independent decisions 
won't be made like that in the future, and that's what's being 
done.
    Ms. Duckworth. Are you doing that also in terms of fraud, 
waste, and abuse when it comes to the fuel card program as 
well?
    Mr. Boardman. We're looking at the fuel card program to try 
to find a way that we can find quicker that there was--there is 
waste fraud and abuse. We would like to have a better system to 
do that, so it's included in that particular part of it. We've 
had discussions with GSA about how we might be able to get that 
quicker. We're a very small part of what GSA really does, but 
we think--we look to GSA first, and for example, in the 
testimony that I heard, over two-thirds of our fleet comes from 
GSA, and it's two-thirds of other fleets that are actually 
owned. So we really do look for GSA to help us with that.
    Ms. Duckworth. Mr. Howard, do you believe that the steps 
that Amtrak is proposing would address your findings and ensure 
that Amtrak can effectively and efficiently both manage its 
fleet and prevent waste, fraud, and abuse, both in the fleet 
program and in the charge card program?
    Mr. Howard. Yes. I think that there's steps in the right 
direction that they have taken. As I mentioned in my remarks, I 
think that there needs to be a sustained commitment to that and 
senior management attention on changing the status quo.
    Ms. Duckworth. So, Mr. Boardman, how are you going to 
ensure that sustainment through the effort occurs? Is there a 
periodic review? How are you holding people responsible? Or is 
there an actual timeline? How are you going to make sure that 
that sustainment, that commitment to a real culture shift is 
going to happen along with the programmatic changes that must 
happen also?
    Mr. Boardman. Well, the Governor's group, for one. But, 
more importantly, in the overall and--overall element of what 
we're trying to make happen is this management-control 
framework. We're tracking IG recommendations. We're tracking 
our business risks. We call them control-improvement 
opportunities. And we're looking for ways that we reduce the 
risk on the company for these kinds of incidents.
    And as long as this company continues in that fashion, then 
we're going to see that sustained commitment for the future. 
And I believe--and the way that it's currently structured--and 
every month, I sit across from Mr. Howard at the board 
meetings, and we go through all the elements of what he's 
providing as recommendations.
    For example, since 2014, I think we looked at, in 2014, we 
had 174 open recommendations from the IG, and that was just too 
many. So we began right away really looking at, how do we 
control this and the management-control process? And in that 
period of time until the end of this last year, we closed 158 
of these recommendations while 49 were being added, so we wound 
up with 65 recommendations.
    And those kinds of things really indicate to me that our 
system works so that we can keep control of it.
    Ms. Duckworth. Mr. Chairman, I am out of time, but I wanted 
to follow up with the GSA.
    Mr. Mica. Go ahead.
    Ms. Duckworth. Okay. Thank you. Thank you for your 
indulgence.
    Mr. Toth, speaking to what Mr. Boardman said that, you 
know, going to rely on GSA for help, you provide many tools and 
services to help with management of these vehicles, such as the 
Federal Automotive Statistical Tool. Does Amtrak participate in 
FAST or take advantage of fleet information-management services 
you offer?
    Mr. Toth. So the FAST tool was actually administered by the 
Department of Energy on behalf of GSA and our office of 
governmentwide policy. I believe, as a quasi-government entity, 
they are not required to.
    And I actually would defer to them. I'm not sure whether 
you participate in the FAST process or not.
    Mr. Boardman. I do not know the proper answer to that. We 
may or may not, but I will respond to you.
    Ms. Duckworth. Great. Thank you.
    Mr. Toth, it does not appear that Amtrak is included in the 
Federal Fleet Report. Is that accurate? And can you explain why 
this would be the case.
    Mr. Toth. It's my understanding they are not in the Federal 
Fleet Report. And, again, that data is compiled through the 
FAST process, so depending on what they're submitting into the 
FAST process. Therefore, it's not compiled into the Federal 
Fleet Report.
    Ms. Duckworth. Okay.
    Mr. Boardman, what percentage of your corporation's 
vehicles meet the use criteria recommended by GSA--or either 
the ones developed by GSA or by Amtrak itself?
    Mr. Boardman. One of the issues that the IG identified was 
that each one of these independent organizations creates their 
own criteria for the selection of a vehicle and the use of the 
vehicle. And so we don't have that. That's something we're 
centralizing as a part of this process.
    Ms. Duckworth. Okay. Thank you.
    I yield back, Mr. Chairman.
    Mr. Mica. I thank the gentlelady.
    Vice chair of the subcommittee, Mr. Grothman.
    Mr. Grothman. Sure. I just want to go over some numbers 
that were previously stated. You said there were 153 cars 
with--I think it was Mr. Howard--153 cars using less than 15 
gallons of fuel.
    Mr. Howard. Yes, that was in 1 month last year. The company 
had identified that. They track fuel usage, and they've set the 
standard of less than 15 a month to identify potential 
underutilization.
    Mr. Grothman. Okay. Just a general question for Mr. Toth: 
About how many miles or years on a car before you turn them 
over?
    Mr. Toth. So there's standard requirements for the entire 
Federal fleet in the fleet management regulations. All agencies 
are bound to abide by those. Then, on top of that, in our 
leasing program, we have more stringent requirements. And they 
vary by the class and the type of the vehicle, you know, from a 
sedan on up to, say, a coach bus, where a coach bus has to go 
10 years and a million miles. I can provide those standards for 
you all in the record.
    Mr. Grothman. Just a basic about, you know, like a basic--
--
    Mr. Toth. The Federal standards for like a Sedan are 3 
years, 36,000 miles. GSA extends both the years and the miles 
on its fleet. A truck runs like 7 years, 60,000 miles. These 
are minimum replacement criteria, not shall be replaced.
    Mr. Grothman. What's the norm?
    Mr. Toth. It varies by agency and by use, as well as 
vehicle condition.
    Mr. Grothman. You'd sell a car after 36,000 miles?
    Mr. Toth. The regulations allow it. That's the minimum 
before it's allowed to be sold.
    Mr. Grothman. But what's the norm? Do you know? Do you have 
any just ballpark idea?
    Mr. Toth. Again, it varies all over the place, depending on 
the condition and the usage of the vehicle.
    Mr. Grothman. Okay.
    Question for Mr. Howard, and this goes back a little bit on 
the fuel cards. You uncovered criminal actions related to fuel 
cards following the 2013 review by the Amtrak Finance 
Department's Management Controls Group that identified 
weaknesses in internal controls. Is that right?
    Mr. Howard. Correct.
    Mr. Grothman. Okay. Mr. Boardman, why didn't Amtrak take 
action at that time to address the weak controls?
    Mr. Boardman. Actually, we have been taking those actions. 
That's part of the process that we're doing.
    Mr. Grothman. Okay. Up here--and maybe it's just a small 
amount. The chart was up here before, but when they say that 97 
percent of the accidents in these cars are the government 
driver's fault, or your guy's fault, is that----
    Mr. Boardman. I have never seen that chart. I don't know 
where it comes from. And if somebody can tell me where it comes 
from, we'll respond to it.
    Mr. Grothman. Okay. Kind of alarming. I guess GSA's fleet 
report.
    Maybe, Mr. Toth, do you know more about that chart?
    Mr. Toth. I don't know who provided it to the committee or 
directly what report it comes from. For our leased vehicle 
program, we do maintain statistics and provide that to our 
customer agencies, so it could have come from that information. 
I did not provide it or prepare for it today.
    Mr. Grothman. I guess Amtrak itself provided it to the 
committee, I'm told here. Is that possible? Maybe you don't----
    Mr. Boardman. I don't think that's--at least from the 
people that are here, I don't believe that. But----
    Mr. Grothman. We should track it down, because if that's 
true, that's just almost beyond belief.
    Mr. Boardman. I agree. The only thing--again, I just don't 
understand it. That's all.
    Mr. Grothman. Okay. Kind of amazing.
    Why don't you tell us a little more--Mr. Howard, we talked 
about the take-home policy on vehicles. Are there any problems 
about that? Could you maybe tell us a little bit more your 
opinion of that policy?
    Mr. Howard. We think that the policy needs to be improved. 
It requires that the take-home vehicle be justified, but 
there's no specific criteria for supervisors to use when 
they're approving the take-home of the vehicle, so there's no 
cost-benefit analysis. So it kind of boils down to employees 
just basically making a case that it's good for them to have a 
vehicle. We would like to see some very structured criteria 
that could be applied and audited.
    Mr. Grothman. Are there any standards? I mean, if I take 
home a vehicle at night, are there any standards to make sure 
I'm not using it to, you know, everywhere under the sun, or are 
there tight standards to just make sure I'm going home?
    Mr. Howard. No, sir.
    Mr. Grothman. So I could take it home on a Friday night and 
drive a million miles or whatever and use it to bomb around all 
weekend, just kind of a perk of the job?
    Mr. Howard. Right. You'd be driving something probably with 
a big Amtrak logo on it though, so hopefully that's a bit of a 
deterrent. But, no, sir, there's not. And we have some cases 
that we're investigating, looking at those abuses.
    Mr. Grothman. Okay. Thanks.
    My one final comment, Mr. Boardman, is it does look like we 
have problems here. And, obviously, your agency is always being 
scrutinized, you know, look at the subsidy and that sort of 
thing. And it's something I would be very--feel more contrite 
about. I mean, I know you understand that.
    Mr. Boardman. I understand that, sir, and that's part of 
the reason I asked the IG to help us with this.
    Mr. Grothman. Okay. Can I just say----
    Mr. Mica. Go right ahead.
    Mr. Grothman. Staff is handing me a binder here, which says 
on the front, ``GSA Department of Transportation Amtrak 
National Account Report, Third Quarter.'' And right under their 
contacts, Tom Moriarty, Stephen Olds. And right beside there, 
on page 8, it gives the percentage of government at fault in 
accidents and incidents. And that's where we get it from. If 
you don't have it, I suppose we can give you a copy of it.
    Mr. Boardman. I just got handed something here.
    Mr. Grothman. Yeah, you can see on page 8 there, it says: 
96.8 percent of the time, accidents and incidents, the Amtrak--
the person driving the Amtrak car is at fault, or at least 
that's what it implies on here.
    Mr. Boardman. So I have got to understand what that means. 
Does it mean the vehicles that are out on the right-of-way that 
are engineering vehicles, operations vehicles that are single 
car, damaged by something along the right-of-way of the 
railroad? I don't understand the report. So we'll find out what 
the report means and respond.
    Mr. Grothman. Maybe there's statistical anomaly. It does 
compare to government agencies in general at 65 percent. So 
it's alarming on the face, but why don't you get back to us.
    Mr. Mica. I thank the gentleman.
    Mr. Boardman. Can I just ask a question? Would this be 
against the 644,000, our 65 percent, and this report would be 
against our 2,500?
    Mr. Toth. This report is an annual report we provide to 
Amtrak with all of the data on their vehicle usage, to include 
accidents and incidents. And it summarizes the number of 
accidents and incidents and those that are at Amtrak's fault 
and/or they are liable for.
    Mr. Mica. And it's comparable to it?
    Mr. Toth. It's not necessarily vehicle accidents, but it 
could be improper usage where a fender was dented, you know, 
operating off-road or something like that and where they bring 
the vehicle back an in unsatisfactory condition.
    Mr. Grothman. But this would just include--and I'm sorry. 
I'm over here--but would it include normal, over-the-road 
vehicles? Or is this some anomaly here where they're including 
like those vehicles they have that operate on the railroad 
itself where it would have to be----
    Mr. Boardman. It would be anything that would be leased 
from GSA. So, since nearly 80 percent of our fleet is leased, 
we probably have all of those conditions exist. And that's why 
I'm looking at it and say: That's just never hit me before, nor 
has it hit the IG. So we will find out what it really is, 
Congressman, and get back.
    Mr. Grothman. Okay. Well, thanks.
    Mr. Mica. I thank the gentleman.
    Let me yield now to the ranking member of the full 
committee, Mr. Cummings.
    Mr. Cummings. Thank you very much, Mr. Chairman, for 
holding this hearing today and for your oversight and the 
ranking member's oversight over vehicle leases entered into by 
Federal agencies and by Amtrak.
    I'm deeply concerned by the inspector general's findings 
about Amtrak's fleet and management practices and urge Amtrak 
to expedite the implementation of the efforts it has underway 
to centralize and strengthen the management of its vehicles.
    However, I want to direct my time that I have available to 
an ongoing issue of great concern to me and to my district and 
to the entire Baltimore area congressional delegation, and that 
is the redevelopment of Baltimore's Penn Station. I want to 
acknowledge that some improvements have been made at the 
station, but they are generally improvements to the most basic 
amenities, like the bathrooms. And I note that it required 
significant persistence before these improvements were made.
    Penn Station is a central gateway into Baltimore, and we 
need that station to be an economic engine. For nearly a 
decade, there have been many fits around the station without 
any actual starts. Much of the building is still empty, and in 
no way does it serve as the anchor point for Baltimore that it 
could and should be.
    Obviously, today, we have both Mr. Boardman, the head of 
Amtrak, and Mr. Howard, the Amtrak inspector general here. You 
both received letters from the Baltimore delegation led by 
Senator Mikulski. So let's get to the central issue.
    Mr. Boardman, why do you believe that enlisting a master 
development team is the most effective and efficient way to 
develop the Penn Station?
    Mr. Boardman. We think that there is an ability to do a 
tremendous amount of improvement because you have people that 
have a larger view of what could be done. And just, for 
example, last week, we received almost--I think it was nine 
proposals to improve that. There's tremendous interest in 
developing Baltimore station.
    Mr. Cummings. Now, Mr. Howard, you wrote that you were, 
quote, ``skeptical of Amtrak's readiness to undertake and 
oversee a master development procurement approach of this scope 
in a timely manner.''
    Why are you skeptical, and what other options do you 
believe are available to Amtrak to redevelop the Penn Station, 
particularly given current budgetary constraints? And do you 
believe that any of those options would more efficiently and 
effectively lead to the redevelopment of the station?
    Mr. Howard. Sir, we're skeptical of Amtrak's ability to do 
this because of our past work, which has identified significant 
problems with program and project management. We've reported to 
those. The company has taken action to improve them, but given 
its track record, we're skeptical.
    We have not yet looked at other alternatives to the 
terminal development issue. Based on the last letter that we 
received from you and the other delegation, we have initiated 
some additional work to do that. And it's our hope that we 
can--out of this additional work--we can identify perhaps some 
alternatives that the company may be able to consider or at 
least offer it--some suggestions on how the terminal 
development initiative can be better implemented.
    Mr. Cummings. Now, Mr. Boardman, Amtrak has moved ahead 
with a two-pronged effort to redevelop Penn Station. One effort 
involves undertaking the work needed to bring Penn Station into 
a state of good repair. The other effort will move forward with 
the selection of a master developer. I want to understand both 
efforts in more detail.
    What is the specific work that will be undertaken to bring 
Penn Station into a state of good repair, and what is the 
status of that effort? Particularly, how much do you expect to 
spend in 2016 on the state of good repair work? What projects 
will be completed this year? How long will it take to complete 
all of the state-of-good-repair projects? And what do you have 
the funding--or do you have the funding that you need to 
complete all the work?
    Mr. Boardman. So I'd like to follow up with a written 
response to you, but let me give you kind of a thumbnail here. 
We're planning on spending about $3 million this year on the 
projects. Part of that has to do with this master development 
partnership, which is about $300,000; part of that has to do 
with a program development with a consultant to identify and 
prepare for the redevelopment activities. So a lot of those 
activities are not identified and fully completed in what needs 
to be done this next year.
    But there's a new generator going in; platform lighting and 
construction upgrades; station WiFi upgrades; Penn Station 
master plan planning activities, which I'm covering; and then a 
B&P Tunnel new lighting. And some of the $22 million that we've 
spent since 2010 in Penn Station, some of it you identified as 
restrooms and other facilities, basic stuff. We did have to 
start with basic stuff.
    And I know you know that, Congressman----
    Mr. Cummings. Yeah.
    Mr. Boardman. --because you've been involved with it.
    Mr. Cummings. Very much so.
    Mr. Boardman. But we will get back, even with an analysis 
of this program partnership, to the delegation just as soon as 
we've gotten through it. There's about nine proposals that are 
in there.
    Mr. Cummings. Just with the chairman's indulgence, I just 
have two more questions.
    If all went according to plan, when would the master 
development process be finished and a redeveloped Penn Station 
be ready to open its doors?
    Mr. Boardman. I don't have that final date.
    Mr. Cummings. Okay. And, finally, what opportunities will 
stakeholders in Baltimore have to weigh in with the master 
development process? And, as you know, many stakeholders in 
Baltimore have been working for years--for years--with Amtrak 
officials to jump start the redevelopment of Penn Station. And 
we want to make sure we have a say.
    Mr. Boardman. We have had--Congressman, I think you know--
ongoing quarterly meetings with all the stakeholders. We could 
expect to continue doing that. I think we have the March, April 
meeting coming up here very shortly. So we're going to stay 
very tight with the stakeholders for Baltimore.
    Mr. Cummings. Thank you very much, Mr. Chairman.
    I really appreciate your indulgence.
    Mr. Mica. Thank you so much, Mr. Cummings.
    The gentleman from Tennessee, Mr. Duncan, you're 
recognized.
    Mr. Duncan. Thank you, Mr. Chairman.
    Ms. Rectanus, you said earlier that your agency had studied 
or looked at 16,000 and found 2,500 were underutilized or 
misused or whatever. And you said it would be an interesting 
exercise to expand that out to the vehicle, to the total fleet. 
And so it's, you know, pretty easy math. That comes out to 
about 100,000 of the 635,000 or 640,000 vehicles that would fit 
into that category. So it's quite a significant number.
    And you heard me mention that my wife and I have had 
several vehicles that we've driven 200,000 miles, and yet I 
mentioned that a constituent who, many years ago, met with me 
complaining about the Forest Service. And I don't remember if 
he said that their vehicles were being auctioned off either 
with less than 40,000 miles or with an average of 40,000 miles, 
but I remember the 40,000-mile figure.
    Do either you or Mr. Toth, in looking into this or studying 
this, can you tell me what is the average mileage when these 
vehicles are replaced?
    Ms. Rectanus. We did not look at that specifically vehicle 
by vehicle, again, because that would be asset-level 
information. I think what we did find, however, in our work is, 
in many cases, agencies are not doing the life-cycle cost 
analysis to really know when is the right time to replace a 
vehicle or eliminate a vehicle, because in some cases, it's the 
opposite; they keep a vehicle longer than they should. In some 
cases, they get rid of it before they should. So the work we've 
done has really supported having them have better data so that 
they make the right decisions.
    Mr. Duncan. Can either of you tell me how many new vehicles 
were purchased by the Federal Government last year?
    Mr. Toth. Yes. It was just under 50,000 vehicles.
    Mr. Duncan. 50,000 new vehicles were purchased. And how 
many new leases were entered into last year?
    Mr. Toth. The leased fleet has been about--been stable for 
the past several years. Some are turned in as agencies downsize 
the fleets, as other agencies either reduce their commercial 
leases and lease from GSA or have new mission requirements 
increase them. But the leased fleet has not grown or declined 
much over the past several years.
    Mr. Duncan. Well, how many new leases are entered into each 
year though, roughly?
    Mr. Toth. About 2,000. We've also had some consolidations, 
which has varied year over year, but we seem to have 2,000 come 
in and 2,000 go out roughly each year.
    Mr. Duncan. And what department has the largest number of 
vehicles? Would that be the Department of Defense or----
    Mr. Toth. Yes, sir.
    Mr. Duncan. And how many have--I understand that--I'm told 
that, in the Department of Defense, that some of the vehicles 
come under your control, and some do not. Is that correct?
    Mr. Toth. Yes, sir. We only lease nontactical vehicles or 
nonmilitary-type vehicles, if you will.
    Mr. Duncan. So how many vehicles would that be in the 
Department of Defense?
    Mr. Toth. Of our 200,000 vehicles that we lease, they are 
about 50 to 60 percent of all vehicles. So 100,000, 110,000 
vehicles total across the Department of Defense.
    Mr. Duncan. So 200,000 of your vehicles are leased, and the 
total fleet is 635,000 or 640,000. Is that correct?
    Mr. Toth. Yes, sir.
    Mr. Duncan. All right. Thank you very much.
    Mr. Mica. Thank you, Mr. Duncan, and other members, for 
participating.
    A couple of quick questions. Now, these hearings are nice, 
and I think this hearing has--and some of your review, both at 
GSA, also GAO, and Amtrak IG have resulted in some action being 
taken. Now, GSA, it's my understanding that you have a new 
agreement or pending agreement that you've done with Amtrak on 
your commercial leases. Is that----
    Mr. Toth. Yes, they are eliminating over 100 of their 
commercial-leased vehicles and going to acquire them from GSA 
through a lease.
    Mr. Mica. And that should result in substantial savings. 
And we have evidence of both from the IG and Amtrak and GAO 
about cost savings, correct?
    Mr. Toth. Yes, sir.
    Mr. Mica. Okay. Because you don't want to just do these 
hearings and not have anything.
    And, Mr. Boardman, you're cooperating. And I mean, you 
cited some of the steps you've been taking since some of these 
things that have been revealed here today, but you're going to 
cooperate on that basis.
    Are there any other major areas in purchases that were in 
fleet management that you can cite today, Mr. Boardman or Mr. 
Toth? Mr. Boardman.
    Mr. Boardman. No. I think we're moving--as I said, we had, 
to begin with, over 70 percent of our fleet was leased from 
GSA, and with this addition, it just goes up more. And I think 
that helps us save more.
    Mr. Toth. And we'll continue to partner with Amtrak to 
assist them in any way we can in managing their fleet.
    Mr. Mica. Well, this is--again, I said a meat-and-potato 
hearing. Let me just say, also, we solicited and received a 
somewhat troubling report from Amtrak. It's an automotive fleet 
report. And this is just for 1 month at the last--I guess we 
could get before the hearing. It's a monthly data information 
collected by Amtrak engineering department. This is December of 
2015.
    Now, you go down and you see at the bottom some of the 
problems with fuel cards. This is just for 1 month: purchases 
exceeding fuel tank capacity, 26; incorrect type of fuel 
purchased, 87 transactions; incorrect mileage entered at the 
pump, 28 vehicles; nonfuel purchases, 102 transactions.
    Then we go down to some of the compliance and safety review 
under Federal motor carrier roadside inspection affecting 
Amtrak's compliance here. Out of compliance vehicles: expired 
DOT inspections, 33; expired high-rail inspections, 35; expired 
crane inspections, 19; expired--looks like diesel--the electric 
inspections, 3.
    Then we look at the drivers, and you have, out of 
compliance drivers: expired medical cards, 52 drivers; 
expired--this is I'm not sure exactly how--but it's a violation 
list, I guess, for drivers--36 drivers. This is very troubling, 
and this also needs attention.
    So this is provided by Amtrak. It isn't from the 
investigations you've done, but this is just 1 month showing 
that it's not operating the way it should operate. So we'd like 
attention to that, maybe for the record, Mr. Boardman, if you 
want to respond. I don't want to put you on the spot here, but 
we would like a response.
    Mr. Boardman. Part of the response is this is a yearly 
total. This isn't 1 month. This is at the end of December.
    Mr. Mica. It says monthly data.
    Mr. Boardman. Right, it's the monthly data summarized at 
the end of December.
    Mr. Mica. Again, even if it is for the year, it's still 
troubling.
    Mr. Boardman. I understand. Just, it's a lot more troubling 
if it's for the month, in my view.
    Mr. Mica. Well, again, we'd like to see that. And we have 
the 1 month that we did review and that was provided for us. So 
this is the status. It's not acceptable. We need improvement. 
And if it was for the year, it's just as troubling.
    Mr. Boardman. Understand.
    Mr. Mica. But, again, we're leaving the record open for the 
next 10 days.
    Did you have any additional questions, Ms. Duckworth?
    Ms. Duckworth. Not at this time.
    Mr. Mica. Mr. Cummings?
    Mr. Cummings. No.
    Mr. Mica. And I thank the members for participating.
    We have some open recommendations from GAO that remain for 
GSA. And we will actually be submitting some questions to some 
of the witnesses today after this hearing. We'd like a response 
so it could be included in the record. And we will get you the 
specific questions after the hearing.
    There being no further business before the subcommittee, I 
want to thank our witnesses for their participation, the good 
work that they've been doing in helping with this important 
study. We look forward to having you back as you complete your 
study on some of our vehicle review of the Federal fleet. And, 
again, I thank everyone for their attention to that.
    I'm sorry. I don't want to preclude anyone. Our vice 
chairman of the committee would like to make a closing remark.
    Mr. Grothman. Right. I just will say, both as far as Amtrak 
and the government as a whole, what we've heard here today is 
alarming. I mean, this isn't the type of hearing that attracts, 
you know, 30 people from the press corps, and you're lucky we 
don't attract 30 people from the press corps, because it's--I 
mean, unless there are things that we're told on the followup 
answers or if we have another hearing that kind of explains 
some of these numbers, it's kind of alarming, kind of sloppy.
    I mean, you know, how quickly we're turning in the cars or 
not knowing how quickly we turn in the cars. I would think, you 
know, there are always some irresponsible people who turn over 
their cars really quickly, and if they want to be spendthrifts, 
that's with their own money. But the possible numbers out there 
are alarming. The number of accidents perhaps caused by 
government employees is alarming.
    I sometimes think--you know, I'm a new guy up here in 
Washington--that people here just think this is good enough. 
But, you know, people right now are very alarmed about what 
they feel is an out-of-control government. And I'll just say 
that I think the government collectively is lucky we don't have 
a lot of members of the press paying attention today because 
this is the type of thing if I talked back home to a Rotary 
Club or Kiwanis Club or something, they're like, holy cow.
    So I hope you leave here with a sense of urgency in 
changing the way we spend people's money. But I'd like to thank 
the subcommittee chairman for bringing the very interesting 
topic to our attention.
    Mr. Mica. Again, I thank the vice chairman, the ranking 
member of the subcommittee, full committee, and others for 
their participation, our witnesses. This hearing is adjourned.
    [Whereupon, at 10:37 a.m., the subcommittee was adjourned.]


                                APPENDIX

                              ----------                              


               Material Submitted for the Hearing Record
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]


                                 [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
